                 OFFICE OF
                 INSPECTOR
                 GENERAL
                 UNITED STATES POSTAL SERVICE




       Integrating Sustainable Energy in
                    Facilities

          Management Advisory Report




                                                December 19, 2011



Report Number DA-MA-12-001
                                                                        December 19, 2011

                                              Integrating Sustainable Energy in Facilities

                                                            Report Number DA-MA-12-001




IMPACT ON:
U.S. Postal Service Facility Energy              Service where there is a long-term
Management and Sustainability                    commitment to retain the property.

WHY THE OIG DID THE AUDIT:                       WHAT THE OIG RECOMMENDED:
Our objective was to identify                    We recommended the vice president,
opportunities for the Postal Service to          Facilities and the chief sustainability
use state-of-the-art alternative energy          officer, establish and monitor
technologies at its facilities.                  performance metrics for any new
                                                 alternative energy systems and continue
WHAT THE OIG FOUND:                              to monitor opportunities and economic
We found that the Postal Service has             feasibilities for additional systems.
not measured the performance of
currently installed alternative energy           WHAT MANAGEMENT SAID:
systems. As the Postal Service                   Management agreed with the
continues to explore alternative energy          recommendations and will establish and
technologies it needs to ensure that             monitor performance metrics on any
performance metrics for assessing                new alternative energy system.
success are established.                         Management will also continue to
                                                 investigate future opportunities that
We also found that additional alternative        provide a good return on investment in a
energy projects might not be                     reasonable timeframe while also
economically viable for the Postal               considering budget limitations and
Service at this time, because alternative        facility optimization efforts.
energy is currently more costly than
energy generated by nuclear or fossil            AUDITORS’ COMMENTS:
fuel sources. Also, the Postal Service is        Management’s comments are
facing many challenges in today’s                responsive to the recommendations in
environment including rightsizing its            the report.
network and limited capital funding.
However, there might be future
opportunities to integrate state-of-the-art
alternative energy technologies to
provide potential savings and other
benefits. These opportunities could exist
for those facilities owned by the Postal         Link to review the entire report
December 19, 2011

MEMORANDUM FOR:            TOM A. SAMRA
                           VICE PRESIDENT FACILITIES

                           THOMAS G. DAY
                           CHIEF SUSTAINABILITY OFFICER




                           for
FROM:                      Judith Leonhardt
                           Acting Deputy Assistant Inspector General
                            for Support Operations

SUBJECT:                   Management Advisory Report – Integrating Sustainable
                           Energy in Facilities
                           (Report Number DA-MA-12-001)

This report presents the results of reviewing integration of renewable energy
technologies in facilities operated by the Postal Service (Project
Number 11YG032DA000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Brian Newman, acting director,
Facilities, Environmental and Sustainability or me at 703-248-2100.

Attachments

cc: Ronald A. Stroman
    Megan J. Brennan
    Corporate Audit and Response Management
Integrating Sustainable Energy in                                                                                  DA-MA-12-001
 Facilities


                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Performance Metrics Not Established for Existing Alternative Energy Systems .............. 2

Fossil and Nuclear Fuel Less Costly Than Alternative Energy ........................................ 3

Recommendations .......................................................................................................... 4

Management’s Comments .............................................................................................. 5

Evaluation of Management’s Comments ......................................................................... 5

Appendix A: Additional Information ................................................................................. 6

   Background ................................................................................................................. 6

   Objective, Scope, and Methodology ............................................................................ 6

   Prior Audit Coverage ................................................................................................... 7

Appendix B: Alternative Energy Technologies Studied ................................................... 8

   Solar PV ...................................................................................................................... 8

   Geothermal .................................................................................................................. 8

   Fuel Cell ...................................................................................................................... 9

   Comparative Costs of Alternative Technologies ........................................................ 10

Appendix C: Management’s Comments ........................................................................ 13
Integrating Sustainable Energy in                                                                      DA-MA-12-001
 Facilities


Introduction

This report presents the results of reviewing integration of sustainable energy in
U.S. Postal Service facilities (Project Number 11YG032DA000). The report is a self-
initiated review to identify opportunities for the Postal Service to use state-of-the-art
alternative energy technologies. This review addresses financial and operational risks.
See Appendix A for additional information about this audit.

The Postal Service has a facility network of more than 33,000 facilities, which
consumed about $605 million in energy cost1 during fiscal year (FY) 2010. In the past,
the Postal Service has integrated alternative energy systems into select facilities to
provide energy savings.

In recent years, the federal government has sought to implement a suite of policies to
make its agencies the leaders in sustainability and early adopters of renewable and
alternative energy. While many of the federal policies generally do not apply to the
Postal Service, there are certain specific provisions of the policies that do apply. For
example, the Energy Independence and Security Act (EISA) of 2007 2 requires the
Postal Service to reduce building energy use by 30 percent by 2015, which it has nearly
met.3

The Congress also passed the Energy Policy Act (EPACT) of 2005,4 which requires
government agencies to increase their use of renewable energy by 7.5 percent by 2013.
Although this act does not apply to the Postal Service, we reviewed it to determine
whether the Postal Service should pursue further integration of alternative energy into
its facility network. Specifically, we evaluated solar photovoltaic (PV),5 geothermal
ground source heat pump (GSHP),6 and fuel cell technologies,7 to determine whether
they can offer the Postal Service an opportunity to further reduce energy costs.8

Conclusion

We determined that the Postal Service has installed alternative energy systems in the
past but has not measured the performance of those systems. The Postal Service
needs to establish and monitor performance metrics for any new alternative energy


1
  Facility energy costs consist of costs for electricity, water, natural gas, fuel oil, steam, and propane.
2
  EISA of 2007- PUB. L. No.110-140 §431.
3
  As of FY 2010, the Postal Service had reduced its building energy use by 29.4 percent based on a FY 2003
baseline.
4
  EPACT of 2005 - PUB. L. No.109-58 §203.
5
  A solar PV system is an array of connected solar cells that convert light energy into electricity.
6
  A GSHP is a central heating and or cooling system that exchanges heat with the ground instead of with the outside
air.
7
  Fuel cells convert the energy in a source of fuel, most commonly natural gas, directly into electricity through a
chemical reaction.
8
  Although other renewable energy technologies are available that could also benefit the Postal Service at some of its
facilities including distributed wind generation, bio-fueled combined heat and power (CHP) generation, and solar
water heating, those other renewable energy technologies were not the focus of this review.
                                                               1
Integrating Sustainable Energy in                                                                     DA-MA-12-001
 Facilities


systems they implement; otherwise, they will be unable to determine whether these
systems are successful.

We also determined that additional alternative energy projects might not be
economically viable for the Postal Service at this time. Renewable energy generally
costs more than electricity generated by either nuclear or fossil fuel plants. Also, the
Postal Service is facing challenges regarding limited availability of capital funding and
right sizing its facility network to reflect current operational needs. However, there might
be future opportunities to integrate state-of-the-art alternative energy technologies to
provide potential savings and other benefits.

Future opportunities for integration of alternative energy technologies could exist for
those facilities owned by the Postal Service where there is a long-term commitment to
retain the property. A possible solution to avoid capital funding and costs is third-party
ownership of alternative energy systems through power purchase agreements (PPAs).
Alternative energy technologies, including solar PV, geothermal, and fuel cells, can
potentially control and reduce energy costs, as well as decrease carbon emissions from
electricity generated from fossil fuels. Additionally, if the Postal Service continues to
explore alternative energy technologies it will need to ensure performance metrics for
assessing success are established and monitored.

Performance Metrics Not Established for Existing Alternative Energy Systems

The Postal Service currently has 14 alternative energy systems, including 10 solar PV
and four fuel cell CHP systems, installed in 11 facilities. These systems were installed
under shared savings contracts,9 which also included other energy savings measures,
such as lighting upgrades. The Postal Service evaluated these contracts on a simple
payback basis, and performance was not guaranteed.

At the time of our review, four of the 14 systems, including two fuel cell CHP and two
solar PV systems, were not operational due to damaged or worn out parts that needed
repair. Specifically, one of the inoperative fuel cell co-generation systems is awaiting
repairs to bring it back into operation. The remaining systems have inoperative parts
that are no longer manufactured.

Based on our discussions with maintenance and energy managers, as well as supply
management staff, we were informed that energy reductions were not measured
specifically for the 14 alternative energy systems currently installed. Therefore, we were
unable to determine the amount of energy savings resulting from those systems. These
systems were installed as part of larger energy savings projects that were approved
based on a simple payback method and were designed to reduce energy consumption
with no measurement and verification required. Without measuring performance, the


9
 Shared energy savings contracts rely on third party energy service companies to fund and install equipment that will
provide energy savings. Such partnerships could allow the Postal Service to pay for the systems over a 10- to 25-
year period and would require little or no upfront costs from the Postal Service.


                                                          2
Integrating Sustainable Energy in                                                                     DA-MA-12-001
 Facilities


Postal Service is unable to determine whether these systems are successful and would
be unable to measure the success of any future systems as well.

Fossil and Nuclear Fuel Less Costly Than Alternative Energy

We determined that alternative energy is currently more costly than energy generated
by nuclear or fossil fuel sources. The cost per kilowatt-hour (kWh) of energy generated
from renewable sources10 is generally higher than that of energy generated from coal,
oil, nuclear, or gas11 (See Appendix B, Chart 1). The lowest estimated costs for
renewable energy examined in this review are equal to the commercial utility rates in
the highest electricity cost states. For example, solar PV costs ranges from 13.4 to
19.2 cents per kWh, which cost more than the average commercial utility rates in
41 states and the District of Columbia. As capital costs for these technologies decrease
and efficiencies increase, generation costs are likely to become more comparable to
prevailing electricity costs in more regions of the country.

To maximize solar output, solar PV systems are better suited for facilities in southern
states, especially in the southwest U.S., due to the higher levels of solar irradiance in
those areas. However, in those areas where there is less irradiance, costs may be
offset by the value of Solar Renewal Energy Certificate (SRECs) 12 and other incentives
that might be available to solar power projects. As a result, solar PV can be a prudent
investment that will lower energy costs in many states in other areas of the U.S., such
as the Northeast. GSHPs have high upfront costs and might need a secondary heat
source in colder climates. Fuel cell systems remain substantially more expensive than
conventional on-site generation technologies. The greatest discrepancy between fuel
cell generation systems and conventional on-site generation systems is the upfront cost.
For further detail on the alternative technologies studied, see Appendix B.

Postal Service Challenges

The Postal Service is facing many challenges in today’s environment, including the
limited availability of capital funding, the lack of flexibility to adjust its business model,
and difficulty in determining how to right size its facility network to meet current
operational needs. The Postal Service has invested in alternative energy technology in
the past and continues to consider these technologies for possible future investment.
However, alternative energy technologies are less reliable and cost prohibitive in the
current environment. Generally, renewable energy costs more than electricity generated
by either a nuclear or a fossil fuel plant. Therefore, alternative energy projects require
either a long-term commitment or considerable upfront capital funding to cover the


10
   Renewable sources include wind, hydroelectric, and solar.
11
   Wind and hydroelectric energy is less costly than electricity generated from natural gas. However, these resources
have considerable geographic limitations.
12
   A SREC is a certificate representing the ‘green attributes’ of 1 megawatt-hour of electricity generated from solar
energy. In states with an SREC market, solar PV owners can generate revenue by selling the SRECs they
accumulate. The value of an SREC is determined by the market subject to supply and demand constraints. SRECs
can be sold to electricity suppliers needing to meet their solar renewable portfolio standard requirement.


                                                          3
Integrating Sustainable Energy in                                                                     DA-MA-12-001
 Facilities


costs. Considering these conditions, renewable energy is too costly for the Postal
Service without large incentives.

As an independent government agency, the Postal Service is generally ineligible for
many of the incentives currently available to owners of alternative energy projects.
Investment tax credits and accelerated depreciation, both of which can significantly
enhance the value to investors in these projects, are not of benefit to the Postal Service,
as the Postal Service does not have a tax liability. This, coupled with the current lack of
available investment capital within the Postal Service, means that it is unlikely the
Postal Service can directly invest in alternative energy technology projects. However,
alternatives providing third-party ownership options, including leasing equipment and
PPAs,13 could provide a possible solution.

Third-Party Ownership Options

The Postal Service might be able to lease alternative energy equipment from a third-
party that can take advantage of available credits and rebates. However, the Postal
Service could be required to operate and maintain the equipment and the savings
achieved may not completely recoup the total expense incurred. PPAs, on the other
hand, offer both the benefits of third-party ownership and operation, as well as payment
only for energy delivered. With PPAs, the Postal Service does not take any equipment
performance or operational risk. However, there is a risk if facilities are closed before
the PPA term expires. Therefore, PPA projects are best suited for facilities the Postal
Service anticipates will remain open for the long term.

If the Postal Service decides to pursue opportunities to further integrate alternative
energy technologies in the future, it should consider establishing performance metrics
for these systems, the relative costs of alternative energy systems, the economic
challenges the Postal Service currently faces, and the various third-party ownership
options.

Recommendations

We recommend the vice president, Facilities and the chief sustainability officer:

1. Establish and monitor performance metrics for new alternative energy systems.

2. Continue to monitor opportunities and economic feasibilities for alternative energy
   systems.




13
  PPAs allow federal agencies to fund on-site renewable energy projects with no upfront capital costs incurred. With
a PPA, a developer installs a renewable energy system on agency property under an agreement that the agency will
purchase the power generated by the system. After installation, the developer owns, operates, and maintains the
system for the life of the contract.


                                                          4
Integrating Sustainable Energy in                                             DA-MA-12-001
 Facilities



Management’s Comments

Management agreed with our recommendation to establish and monitor performance
metrics for new alternative energy systems. Management stated they will ensure that
any new alternative energy system investment has performance metrics.

Management also agreed with our recommendation to monitor opportunities and
economic feasibilities for alternative energy systems. Management noted that current
budget limitations and corporate emphasis on facility optimization creates challenges in
making long-term investments in alternative energy systems. However, they will
continue to investigate future opportunities that provide a good return on investment in a
reasonable timeframe. See Appendix C for management’s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General considers management’s
comments responsive to the recommendations, and corrective actions should resolve
the issues identified in the report.




                                            5
Integrating Sustainable Energy in                                                               DA-MA-12-001
 Facilities


                               Appendix A: Additional Information

Background

The Postal Service’s facility energy costs for FY 2010 was about $605 million. This cost
alone encourages the Postal Service to reduce its energy use; however, numerous
federal laws and executive orders direct government agencies to reduce energy
consumption as well. In most cases, executive orders do not pertain to the Postal
Service unless specifically mentioned. Postal Service compliance with these orders is
voluntary. EISA indicates the Postal Service reduce its facility energy consumption by
30 percent from a 2003 baseline. According to the Postal Service’s 2010 Sustainability
Report, the Postal Service has achieved a 29.4 percent reduction in energy
consumption from the 2003 base.

With more than 33,000 facilities in the Postal Service’s facility network, the Postal
Service has a large impact on the environment. Over the years, the Postal Service has
received more than 75 major environmental awards for its efforts. The Postal Service
has adopted a policy in which its priority is to identify efficiency opportunities first and
then review alternative and renewable energy sources for economic and operational
viability. Continuing efforts will be limited, because the Postal Service’s energy budget
has been reduced from $125 million in FY 2010 to no funding for energy reduction
measures in FY 2012.

Renewable energy and green alternative energy technologies enjoy significant public
support in the U. S. A July 2011 survey by Rasmussen Reports found that 63 percent of
respondents believe that investing in renewable energy is a better long-term investment
for America than fossil fuels, while only 27 percent believe that fossil fuels are a better
option. These results have not shifted significantly since an earlier survey done in
January 2010.14

Objective, Scope, and Methodology

Our objective was to identify opportunities for the Postal Service to use state-of-the-art
alternative energy technologies. To accomplish our objective we reviewed prior
alternative energy projects that include solar and fuel cell technology, reviewed laws
and executive orders, met with U.S. Department of Energy officials, talked to
representatives of private industry and consulted with subject matter experts to evaluate
the best technologies to include, but not limited to, solar and geothermal.

We conducted this review from May through November 2011 in accordance with the
Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our observations and conclusions with
management on November 8, 2011, and included their comments where appropriate.


14
   Rasmussen Reports. (2011). Energy Updates. Retrieved from
http://www.rasmussenreports.com/public_content/politics/current_events/environment_energy/energy_update.


                                                      6
  Integrating Sustainable Energy in                                                   DA-MA-12-001
   Facilities


  We did not rely on Postal Service system data to complete our review. We relied upon
  the work of a management and technology consulting firm to provide subject matter
  expertise and analysis. We obtained evidence of the qualifications and independence of
  the consulting firm’s members. In addition, we assessed the reliability of the consulting
  firm’s data through review of their research report and examination of supporting
  documentation. We determined that the data from the aforementioned sources were
  sufficiently reliable for the purposes of this report.

  Prior Audit Coverage

                                        Final
                                       Report         Monetary
   Report Title      Report Number      Date           Impact                Report Results
Sustainability:       DA-MA-09-001    6/12/2009       $3,619,171   Although the Postal Service
Promoting Energy                                                   established guidance for energy
and Recycling                                                      conservation, improvements are
Compliance                                                         needed to increase energy
                                                                   awareness in the field as only two
                                                                   of the 90 sites visited met basic
                                                                   energy standards. The Postal
                                                                   Service could increase energy
                                                                   efficiency through complying with
                                                                   low cost or no cost measures.
                                                                   Management agreed with
                                                                   recommendations to issue
                                                                   memorandums, directives,
                                                                   checklists, or other written
                                                                   guidance to installation managers
                                                                   to reinforce energy and recycling
                                                                   policies. They also agreed to
                                                                   provide periodic service talks and
                                                                   briefings to employees on energy
                                                                   and recycling practices.
Sustainability:       DA-MA-10-001    1/28/2010         None       In this review, seven of 88 sites
Promoting Energy                                                   visited met basic energy standards,
and Recycling                                                      showing some improvement for
Compliance                                                         energy awareness. Management
Fiscal Year 2009                                                   agreed with recommendations to
                                                                   develop standards and pilot
                                                                   systems to allow building
                                                                   management, measurement, and
                                                                   control, issue written guidance to
                                                                   installation managers and provide
                                                                   periodic service talks and briefings
                                                                   to employees to reinforce energy
                                                                   and recycling policies.




                                                  7
Integrating Sustainable Energy in                                              DA-MA-12-001
 Facilities


                  Appendix B: Alternative Energy Technologies Studied

Solar PV

Research and development in the U.S. and around the world has been focused on PV
materials, manufacturing and design techniques, and project construction approaches.
As a result, the technologies and materials used in solar PV components and systems
have improved significantly in efficiency and performance. Component reliability and
expected equipment life have also increased and overall capital costs have come down
significantly. Solar PV uses solid-state devices to directly convert sunlight into
electricity. Solar PV generating systems range in size from the small, single solar cell
PV systems used to power calculators and wristwatches, to large solar PV arrays used
in multi-megawatt utility scale plants. Plants used to power larger loads and or connect
to the grid can be roof mounted, ground mounted, mounted on parking canopies, or
integrated into building structures as part of the architecture. The performance
characteristics of a solar PV system are important to consider when assessing the
viability of on-site solar PV generation. Solar PV electricity generation is driven by the
intensity of solar irradiance, which is a function of geographic location. Electricity
generation is also affected by additional factors such as cloud cover, precipitation, and
temperature, to name a few.

One of the main advantages of solar PV is that it provides consistently priced electricity
over the life of the system. The constant price facilitates long-term planning and reduces
the customer’s exposure to fluctuations in the cost of grid-sourced electricity, which is
subject to changes in environmental regulations, government policies, rate base capital
costs, and fluctuations in fuel costs. Solar PV systems are also very flexible in terms of
physical layout, require limited maintenance, and systems require no fuel. Additionally,
federal incentives coupled with state and utility incentives can greatly lower the cost of
solar PV systems for commercial developers.

Solar PV has gained significant market penetration throughout the U.S. in the past few
years. This penetration is especially pronounced in areas of high solar irradiance (for
example, in the southwest U.S.) and areas where financial incentives have supported
the installation of PV projects (such as in the Northeast U.S.). There was an
unprecedented capacity expansion in 2010, which was largely driven by expectations
that the U.S. Department of the Treasury's grant program would expire at the end of
2010. However, the program was extended to 2011.

Geothermal

The second alternative energy technology studied was geothermal energy. Geothermal
energy usage can be split into two related but separate areas: electricity generation
(geothermal electric) and thermal energy production (GSHP). Geothermal electric is not
considered to be a suitable alternative energy technology for the Postal Service
because its potential is often in areas of little population and requires facilities much
larger than what the Postal Service would need to be cost effective. Also, geothermal



                                             8
Integrating Sustainable Energy in                                              DA-MA-12-001
 Facilities


electric projects have a high cost of development. However, usage of geothermal
energy through GSHPs is a viable and suitable technological approach for the Postal
Service.

GSHPs use the constant subsurface temperature of the ground to provide heating and
cooling. A GSHP can provide heating in cold weather and cooling in hot weather with
efficiencies that result in 25 to 50 percent less electricity use than conventional heating
and cooling systems. Geothermal heating and cooling is the fastest growing geothermal
technology in the U.S. and worldwide. It is applicable to all sizes of facility, from
residential and small commercial to large office parks and industrial facilities, wherever
space heating and or cooling are required. It is also a technology that is applicable
throughout the U.S. Figure 1 depicts a common vertical closed-loop system. The
vertical closed-loop system is the preferable system type for commercial applications,
because it occupies less space than other system types.

                     Figure 1: Vertical GSHP for Commercial Buildings




Fuel Cell

Fuel cells were the third alternative energy technology we examined. Fuel cells convert
the energy in a source of fuel (most commonly natural gas) directly into electricity
through a chemical reaction. They also produce waste heat in the form of hot water,
which can be used in a CHP application for space heating and cooling, domestic hot
water, or for process uses.

Fuel cells are quiet, clean, and efficient. However, systems have a high capital cost and,
in the past, have had issues of life expectancy of the system’s main component, the fuel




                                             9
Integrating Sustainable Energy in                                                                     DA-MA-12-001
 Facilities


stack,15 and in their general maintenance. As a result, they have not gained widespread
market acceptance or achieved widespread market penetration. There has been an
increase in the installation of this technology in facilities designated as ‘places of refuge’
that provide secure power during grid emergencies, and in other locations as the capital
costs are reduced. The Postal Service has installed a few fuel cells in the past and has
experienced some of these challenges regarding cost and maintenance. However,
because of overall system efficiencies, current fuel cell technology does offer the
potential to help the Postal Service reduce and manage energy costs and carbon
footprints in facilities where electrical and thermal energy can be used on a constant
basis.

Comparative Costs of Alternative Technologies

As a result of increased worldwide awareness of energy costs and the environmental
impact of fossil fuel combustion, all three of the above alternative energy technologies
have seen extensive research and development activity over the past few years. With
this research and development investment, and a wide range of policies and incentives
to promote installation of these technologies, all three technologies have experienced a
combination of improved efficiency and performance, as well as lower capital and
operating costs. As a result, all three technologies have become more attractive
investments over the past few years. Projections also indicate that these trends in
improved efficiency and performance and reduced costs will continue for the near
future.

The lowest estimated costs for electrical generation technologies examined in this
review equal the commercial utility rates in the highest electricity cost states; however,
they are more costly than the electric rates in the other states. Location specific
characteristics; however, can affect the effective generation costs, as can state and
other incentives as well as state and local policies. Incentives and policies can
effectively lower the cost of generation and make these technologies applicable in more
areas with lower electric prices. In addition, as capital costs for these technologies
decrease and efficiencies increase, generation costs are likely to become even more
comparable to prevailing electricity costs in more regions of the country. However, the
potential impact of government incentives and subsidies varies by technology and state.
For example, if all subsidies were lost, the total cost of solar PV could increase by
100 percent or more in some states.

The cost per kWh of energy generated from renewable sources is generally higher than
that of energy generated from either coal, oil, nuclear, or gas. As depicted in Chart 1 ,
hydroelectric is the most cost effective energy source at a cost of about 3 cents per
kWh. However, geographical and environmental constraints limit the feasibility of
hydroelectric energy. Nuclear and coal cost about 4 cents per kWh, gas is about 10
cents per kWh, while wind and solar are about 8 cents and 22 cents per kWh,
respectively. These costs include construction, production, and decommissioning costs.

15
  Based on information from three fuel cell manufacturers, the overall fuel cell equipment has an expected lifespan of
about 20 years, but the lifespan of the fuel cell stack itself ranged from only 2 to 10 years.


                                                         10
Integrating Sustainable Energy in                                            DA-MA-12-001
 Facilities


Construction costs refer to the costs to build the energy production plant, and
production costs refer to the costs to produce the energy. Decommissioning costs apply
only to nuclear power plants, and refer to the costs related to decommissioning the
nuclear power plant. When a power company decides to close its nuclear power plant
permanently, it must decommission the facility by safely removing it from service and
reducing residual radioactivity to a level that permits release of the property and
termination of the operating license.

Incentives such as grants and federal and state tax rebates could reduce the costs for
renewable energy systems. Because the Postal Service is generally not eligible for such
incentives, the Postal Service might be able to partner with private developers who are
eligible for the incentives. Such partnerships could allow the Postal Service to pay for
the systems over a 10- to 25-year period and would require little or no upfront costs
from the Postal Service.

                              Chart 1: Total Cost of Electricity per
                                              kWh




                                                                         Decommissioning
                                                                         Production
                                                                         Construction




In addition to alternative energy systems that generate electricity, GSHPs, can use the
constant subsurface temperature of the ground to provide heating and cooling. GSHPs
can reduce electricity consumption by 25 to 50 percent by using the earth as an


                                                11
Integrating Sustainable Energy in                                           DA-MA-12-001
 Facilities


exchange medium rather than outside air. However, upfront costs associated with
GSHPs tend to be higher than the upfront costs of conventional heating, ventilation, and
air-conditioning systems due to drilling costs and loop development.




                                           12
Integrating Sustainable Energy in                               DA-MA-12-001
 Facilities


                            Appendix C: Management’s Comments




                                           13
